Resp. App. 1
UNITED STATES BANKRUPTCY COURT
DISTRICT OF MAINE
In re:
MONTREAL MAINE &
ATLANTIC RAILWAY, LTD.

Bk. No. 13-10670
Chapter 11

Debtor.
REVISED FIRST AMENDED DISCLOSURE
STATEMENT FOR THE TRUSTEE’S PLAN
OF LIQUIDATION DATED JULY 15, 2015
BERNSTEIN, SHUR, SAWYER & NELSON, P.A.
D. Sam Anderson, Esq.
Roma N. Desai, Esq.
Lindsay K. Zahradka, Esq.
Timothy J. McKeon, Esq.
100 Middle Street
P.O. Box 9729
Portland, Maine 04101-5029
Counsel for Trustee
Dated: July 15, 2015
*

*

*

VII.
THE PLAN
A. INTRODUCTION
This section of the Disclosure Statement summarizes the Plan, a copy of which has been filed separately on the Bankruptcy Court docket and is attached

Resp. App. 2
hereto as Exhibit A. This summary is qualified in its
entirety by reference to the provisions of the Plan.
Statements as to the rationale underlying the
treatment of Claims under the Plan are not intended
to, and will not, waive, compromise or limit any rights,
claims or causes of action in the event the Plan is not
confirmed.
YOU SHOULD READ THE PLAN IN ITS ENTIRETY BEFORE VOTING TO ACCEPT OR REJECT THE PLAN.
B. CLASSIFICATION AND TREATMENT OF
CLAIMS UNDER THE PLAN
The Bankruptcy Code states that only claims that
are “allowed” may receive distributions under a chapter 11 plan. The term “allowed” is used throughout the
Plan and the descriptions below. In general, an “allowed” claim simply means that the debtor agrees, or
in the event of a dispute, that the Bankruptcy Court
determines, that the claim, and the amount thereof, is
in fact a valid obligation of the debtor. Section 502(a)
of the Bankruptcy Code provides that a timely filed
claim is automatically “allowed” unless the debtor or
other party in interest objects. However, section 502(b)
of the Bankruptcy Code specifies certain claims that
may not be “allowed” in bankruptcy even if a proof of
claim is filed. These include, but are not limited to,
claims that are unenforceable under the governing
agreement between a debtor and the claimant or applicable non-bankruptcy law, claims for unmatured

Resp. App. 3
interest, property tax claims in excess of the debtor’s
equity in the property, claims for services that exceed
their reasonable value, real property lease and employment contract rejection damage claims in excess of
specified amounts, late-filed claims, and contingent
claims for contribution and reimbursement. In addition, Bankruptcy Rule 3003(c)(2) prohibits the allowance of any claim that either is not listed on the
debtor’s schedules or is listed as disputed, contingent
or unliquidated, if the holder has not filed a proof of
claim or equity interest before the established deadline.
The Bankruptcy Code requires that, for purposes
of treatment and voting, a chapter 11 plan divide the
different claims against the debtor into separate classes based upon their legal nature. However, certain
types of claims – administrative claims and certain tax
claims – are not classified. Claims of a substantially
similar legal nature are not necessarily classified together. Because an entity may hold multiple claims
which give rise to different legal rights, the “claims”
themselves, rather than their holders, are classified.
Under a chapter 11 plan, the separate classes of
claims must be designated as either “impaired” (affected by the plan) or “unimpaired” (unaffected by the
plan). If a class is unimpaired, the holders of claims in
such class do not vote on the plan. If a class of claims
is impaired, the Bankruptcy Code affords certain
rights to the holders of such claims, such as the right
to vote on the plan, and the right to receive, under the
chapter 11 plan, no less value than the holder would

Resp. App. 4
receive if the debtor were liquidated in a case under
chapter 7 of the Bankruptcy Code.
Under section 1124 of the Bankruptcy Code, a
class of claims is “impaired” unless the plan (i) does not
alter the legal, equitable and contractual rights of the
holders or (ii) irrespective of the holders’ acceleration
rights, cures all defaults (other than those arising from
the debtor’s insolvency, the commencement of the case
or nonperformance of a nonmonetary obligation), reinstates the maturity of the claims or interests in the
class, compensates the holders for actual damages incurred as a result of their reasonable reliance upon any
acceleration rights, and does not otherwise alter their
legal, equitable, and contractual rights.
Under certain circumstances, a class of claims
may be deemed to reject a plan. For example, a class is
deemed to reject a plan under section 1126(g) of the
Bankruptcy Code if the holders of claims in such class
do not receive or retain property under the plan on account of their claims.
C. PROVISIONS FOR PAYMENT OF NONCLASSIFIED CLAIMS
i.

Administrative Expense Claims.

(a) Allowance of Administrative Expense Claims.
An Administrative Expense Claim, with respect to
which a request for payment has been properly and
timely filed shall become an Allowed Administrative
Expense Claim if no objection to such request is filed

Resp. App. 5
by the Trustee with the Bankruptcy Court on or before
the one-hundred-and-twentieth (120th) day after the
Effective Date, or on such later date as may be fixed by
the Bankruptcy Court, whether fixed before or after
the one-hundred-and twentieth (120th) day after the
Effective Date. If an objection is timely filed, the Administrative Expense Claim shall become an Allowed
Administrative Expense Claim only to the extent Allowed by Final Order or as such Claim is settled, compromised, or otherwise resolved by the Trustee or the
Estate Representative pursuant to Section 7.20 of the
Plan.
(b) Payment of Allowed Administrative Expense
Claims. Except to the extent that a Holder of an Allowed Administrative Expense Claim (other than a
Claim covered by Section 2.2 or 2.3 of the Plan) agrees
to a less favorable treatment, each Allowed Administrative Expense Claim (including any Allowed Claim
asserted under section 503(b)(9) of the Bankruptcy
Code) shall be paid in full, in Cash, in an amount equal
to the unpaid portion of such Allowed Administrative
Expense Claim within thirty (30) days following the
later to occur of (a) the Effective Date, or (b) the date
on which such Administrative Expense Claim shall become an Allowed Claim; provided, however, that Allowed Administrative Expense Claims (other than a
Claim covered by Section 2.2 or 2.3 of the Plan) against
the Debtor representing liabilities incurred in the ordinary course of business by the Debtor shall be paid,
as applicable, in the ordinary course of business, consistent with past practice and in accordance with the

Resp. App. 6
terms and subject to the conditions of any agreements
governing, instruments evidencing, or other documents relating to, such transactions.9
ii. Professional Compensation and Reimbursement Claims
All Persons seeking an award by the Bankruptcy
Court of compensation for services rendered or reimbursement of expenses incurred through and including
the Effective Date under sections 326, 328, 330, and
331 of the Bankruptcy Code or filing applications
for allowance of Administrative Expense Claims arising under section 503(b)(2), 503(b)(3), 503(b)(4), or
503(b)(5) of the Bankruptcy Code shall (a) file their respective final applications for allowance of compensation for services rendered and reimbursement of
expenses incurred by the date that is sixty (60) days
after the Effective Date, and (b) be paid in full, in Cash,
by the Trustee or Disbursing Agent, as applicable, such
amounts as are allowed by the Bankruptcy Court (i)
within thirty (30) days after the date on which the order relating to any such Administrative Expense
Claim is entered or (ii) upon such other terms as may
be mutually agreed upon between the Holder of such
9

As set forth in the Liquidation Analysis attached as Exhibit
C hereto, as of the date hereof, the Trustee estimates between approximately $6.5 and $7.9 million in Administrative Expense
Claims. The Wheeling Superpriority Claim, to the extent not reduced or eliminated by subsequent litigation, is an Allowed Administrative Expense Claim with priority over other Allowed
Administrative Expense Claims (to the extent paid from non-designated funds of the Estate).

Resp. App. 7
Administrative Expense Claim and the Trustee or Disbursing Agent, as applicable.
iii. Priority Tax Claims.
Except to the extent that a Holder of an Allowed
Priority Tax Claim agrees to a less favorable treatment, each Holder of an Allowed Priority Tax Claim
that has not already been paid in full shall receive, in
full satisfaction, settlement, and release of and in exchange for such Allowed Priority Tax Claim, on the
later of the Effective Date and the date such Priority
Tax Claim becomes an Allowed Priority Tax Claim, or
as soon as practicable thereafter, Cash in an amount
equal to such Allowed Priority Tax Claim.
iv. Sections 1171(a), 1171(b) and Derailment Government Claims Not Administrative Claims.
By agreement with Holders in the affected Class,
all Derailment Wrongful Death Claims and Derailment Moral Damages and Personal Injury Claims, to
the extent afforded administrative expense status under section 1171(a) of the Bankruptcy Code, shall be
treated as Class 12 and Class 8 Claims respectively, as
provided in the Plan, and shall not be Allowed Administrative Expense Claims.
Claims arising under section 1171(b) of the Bankruptcy Code, if any, shall not be treated as Allowed Administrative Expense Claims, but shall be treated as

Resp. App. 8
Priority (Class 7) Claims, junior in priority to all other
Allowed Priority (Class 7) Claims, to the extent Allowed by a Final Order of the Bankruptcy Court as
Claims arising under Bankruptcy Code section 1171(b).10
By agreement with Holders in the affected Class,
to the extent that any Derailment Government Claim
might be an Allowed Administrative Expense Claim
under applicable law, such Derailment Government
Claim will not be treated or paid as an Administrative
Expense Claim but shall be treated solely as a Class
10 Claim.

10

Bankruptcy Code section 1171 preserves the priority of
claims in pre-Code equity receiverships. See 8 Collier on Bankruptcy ¶ 1171.02, pp. 107-9, 107 (16th ed. 2010). The specific
claims protected by section 1171(b) are referred to as “six-month
claims,” which are claims incurred where: (i) the claim arose
within six months of the filing of the petition; (ii) the obligation
was incurred for a current and necessary operating expense in the
ordinary course of business; and (iii) the creditor expected to be
paid out of the current operating revenues of the railroad, rather
than relying on the railroad’s general credit. Id. “In general, sixmonth claims should be below [in priority] all of the section 507
priorities.” Id. at 108. Moreover, “any treatment in [a] plan which
is consistent with that policy and fair to the section 507 priority
claims is proper.” Id. Maine Northern Railway Company and New
Brunswick Southern Railway Company Limited (together, the
“Irving Railroads”) assert that 1171(b) Claims are properly
treated as Administrative Expense Claims. The Trustee disputes
this interpretation of the law. Absent a settlement, the Bankruptcy Court will adjudicate this issue.

Resp. App. 9
D

CLASSIFICATION OF CLAIMS AND EQUITY INTERESTS

The following table designates the classes of
Claims against, and Equity Interests in, the Debtor
and specifies which of those Classes are impaired or
Unimpaired by the Plan and entitled to vote to accept
or reject the Plan in accordance with section 1126 of
the Bankruptcy Code or deemed to accept or reject the
Plan under that Section.
Class

Designation

Impairment

Entitled
to Vote

Class 1

Wheeling
Unimpaired
Secured Claims

No

Class 2

FRA Secured Unimpaired
Claims

No

Class 3

MDOT Secured Unimpaired
Claims

No

Class 4

Bangor Savings Unimpaired
Bank Secured
Claim

No

Class 5

State Income Unimpaired
Tax Claims

No

Class 6

Municipal
Tax Claims

Unimpaired

No

Class 7

Priority Claims Unimpaired

No

Class 8

Derailment
Impaired
Moral Damages
and Personal
Injury Claims

Yes

Resp. App. 10
Derailment
Impaired
Property
Damage Claims

Yes

Derailment
Impaired
Government
Claims
Class 11 Derailment
Impaired
Property Subrogated Insurance Claims

Yes

Class 12

Yes

Class 9

Class 10

Derailment
Impaired
Wrongful Death
Claims

Yes

Class 13 General Unsecured Claims

Impaired

Yes

Class 14 Subordinated
Claims

Impaired

No (Deemed
to Reject)

Class 15

Impaired

No (Deemed
to Reject)

Equity
Interests

Class 1 shall consist of all Allowed Secured
Claims of any kind or nature held by Wheeling against
the Debtor.
Class 2 shall consist of all Allowed Secured
Claims of any kind or nature held by the United States
of America, Department of Transportation, acting by
and through the FRA against the Debtor.

Resp. App. 11
Class 3 shall consist of all Allowed Secured
Claims of any kind or nature held by Maine Department of Transportation (“MDOT”) against the Debtor.
Class 4 shall consist of all Allowed Secured
Claims of any kind or nature held by Bangor Savings
Bank against the Debtor.
Class 5 shall consist of all Allowed Income Tax
Claims of any kind or nature held by any state government, including Maine and Vermont, against the
Debtor.
Class 6 shall consist of all Allowed Tax Claims of
any kind or nature held by any municipality.
Class 7 shall consist of all non-Tax Priority
Claims of any kind or nature against the Debtor, including Claims arising under section 1171(b) of the
Bankruptcy Code.
Class 8 shall consist of all Allowed Derailment
Moral Damage and Personal Injury Claims.
Class 9 shall consist of all Allowed Derailment
Property Damage Claims.
Class 10 shall consist of all Allowed Derailment
Government Claims.
Class 11 shall consist of all Derailment Property
Subrogated Insurance Claims.
Class 12 shall consist of all Derailment Wrongful
Death Claims.

Resp. App. 12
Class 13 shall consist of all Allowed General Unsecured Claims of any kind or nature against the
Debtor, including Allowed General Unsecured Claims
arising from a deficiency of Collateral securing any Allowed Secured Claims.
Class 14 shall consist of all Subordinated Claims.
Class 15 shall consist of all Equity Interests in the
Debtor.
E. TREATMENT OF CLAIMS AND EQUITY
INTERESTS
i.

Class 1: Wheeling Secured Claims.

Impairment and Voting. Class 1 is unimpaired by
the Plan. The Holder of the Class 1 Claim is not entitled to vote to accept or reject the Plan.
Distributions. Except to the extent that a Holder
of an Allowed Wheeling Secured Claim (i) has been
paid by the Trustee, in whole or in part, prior to the
Effective Date; (ii) has been or will be paid from the
liquidation of its Collateral on and after the Petition
Date, (iii) has been or will be paid pursuant to the
CCAA Plan; or (iv) agrees to a less favorable treatment,
the Holder of the Class 1 Claim shall (A) receive Cash
from the sale or monetization of the Collateral securing such Claim, if any, subject to the Trustee’s right to
recover certain costs and expenses pursuant to section
506(c) of the Bankruptcy Code, and (B) retain all of its
rights and obligations pursuant to the Wheeling Proceedings, as well as the right to assert that any future

Resp. App. 13
recoveries by the Trustee, including any Residual Assets or proceeds thereof, are Collateral securing the
Class 1 Claim (and the Trustee shall reserve the right
to contest such claims).11 To the extent of any deficiency in the value of Collateral securing the Class 1
Claim, the Holder shall hold a Class 13 Claim in the
amount of such deficiency.
ii. Class 2: FRA Secured Claims.
Impairment and Voting. Class 2 is unimpaired by
the Plan. The Holder of the Class 2 claim is not entitled
to vote to accept or reject the Plan.
Distributions. The Class 2 Claim is an Allowed
Claim. Except to the extent that the Holder of the
Class 2 Claim (i) has been paid by the Trustee, in whole
or in part, prior to the Effective Date; (ii) has been or
will be paid pursuant to the CCAA Plan; or (iii) agrees
to a less favorable treatment, the Holder of a Class 2
11

Wheeling’s rights preserved the Bankruptcy Court’s Order
on Wheeling & Lake Eerie Railway Company’s Motion to Intervene
as of Right Pursuant to Bankruptcy Rule 7024 and Rule 24(a) of
the Federal Rules of Civil Procedure [No. 14-01001, D.E. 54],
dated November 4, 2014, are preserved under the Plan. Thus, to
the extent that Wheeling can establish that any portion of the
Settlement Funds constitute collateral of Wheeling, Wheeling
will be paid from such collateral. The Trustee disputes that any
portion of the Settlement Funds constitute collateral of Wheeling.
Barring a settlement, payment of Wheeling from another source,
or a ruling by the Bankruptcy Court reducing or disallowing
Wheeling’s Claims, surcharging its collateral, or determining that
Wheeling’s Claims are satisfied, the Bankruptcy Court will later
adjudicate Wheeling’s rights, if any, in the Settlement Funds.

Resp. App. 14
Claim shall (A) receive Cash from the sale or monetization of the Collateral securing such Claim, pursuant
to the Sale Order and the APA, or otherwise; (B) retain
its liens, if any, in Residual Assets, and (C) retain its
rights pursuant to the FRA Adequate Protection Order,
including any rights to some or all of the 45G Proceeds
and the Travelers’ Proceeds. To the extent of any deficiency in the value of Collateral securing the Class 2
Claim, the Holder of the Class 2 Claim shall hold an
Allowed Class 13 Claim in the amount of such deficiency.
iii. Class 3: MDOT Secured Claims.
Impairment and Voting. Class 3 is unimpaired by
the Plan. The Holder of the Class 3 Claim is not entitled to vote to accept or reject the Plan.
Distributions. As a consequence of the Asset Sale,
there is no value attributable to the Class 3 Claim. See
11 U.S.C. § 506(a). The Holder, of the Class 3 Claim
shall receive a Class 13 Claim in the amount of such
deficiency.
iv. Class 4: Bangor Savings Bank Secured
Claims.
Impairment and Voting. Class 4 is unimpaired by
the Plan. The Holder of the Class 4 Claim is not entitled to vote to accept or reject the Plan.
Distributions. The Holder of the Class 4 Claim was
granted relief from the automatic stay and allowed to

Resp. App. 15
liquidate its Collateral, to the extent such Collateral
was property of the Estate. To the extent of any deficiency, see 11 U.S.C. § 506(a), the Holder of the Class 4
Claim shall have a Class 13 Claim in the amount of
such deficiency.
v.

Class 5: State Income Tax Claims.

Impairment and Voting. Class 5 is unimpaired by
the Plan. The Holders of Allowed Class 5 Claims are
not entitled to vote to accept or reject the Plan.
Distributions. The Trustee believes that any Class
5 Claims are the sole responsibility of non-Debtor Affiliates. To the extent the Estate is obligated with respect to any Class 5 Claims, such Class 5 Claims will
be paid in full, including any interest and penalties, on
the later of the Effective Date, or thirty (30) days after
the date such claims become Allowed Claims.
vi. Class 6: Municipal Tax Claims.
Impairment and Voting. Class 6 claims are not impaired by the Plan. The Holders of Allowed Class 6
Claims are not entitled to vote to accept or reject the
Plan.
Distributions. The Trustee believes that all Class
6 Claims were paid in full from the Asset Sale Consideration. To the extent unpaid, such Class 6 Claims will
be paid in full, including any interest and penalties, on
the later of the Effective Date, or thirty (30) days after
the date such claims become Allowed Claims.

Resp. App. 16
vii. Class 7: Priority Claims.
Impairment and Voting. Class 7 Claims are unimpaired by the Plan. Each Holder of an Allowed Priority
Claim in Class 7 is not entitled to vote to accept or reject the Plan.
Distributions. The Trustee believes that all Class
7 Claims, other than any Claims arising under section
1171(b), were paid in full from the Asset Sale Consideration. To the extent unpaid, such Class 7 Claims,
other than Claims, if any, arising under section 1171(b)
of the Bankruptcy Code, shall be paid in full on the
later of the Effective Date or thirty (30) days after the
date such Claims become Allowed Claims. With respect
to Claims, if any, arising under section 1171(b) of the
Bankruptcy Code and which, as a matter of law, are
junior in priority to other Class 7 Claims, such Claims
shall be paid on the later of the Effective Date or thirty
(30) days after the date such Claims become Allowed
Claims in such amount and upon such terms as the
Bankruptcy Court shall determine and as set forth in
any Final Order allowing, in whole or in part, such
Claims. The Trustee does not believe that there are
any Claims arising under section 1171(b) of the Bankruptcy Code that will be Allowed, but certain railroad
companies have asserted that they hold § 1171(b)
Claims.12
12

In particular, the Irving Railroads have asserted entitlement to 1171(b) Claims totaling, in the aggregate, $2,139,063.56.
The Trustee disputes these assertions and intends to object to
such Claims, as the Trustee does not believe that such Claims
meet the criteria for section 1171(b) Claims described above.

Resp. App. 17
viii. Class 8: Derailment Moral Damages
and Personal Injury Claims.
Impairment and Voting. Class 8 Claims are impaired by the Plan. Holders of Class 8 Claims are entitled to vote to accept or reject the Plan.
*

*

*

Absent a settlement, the Bankruptcy Court will adjudicate these
issues.

